<html>
<title> - WASHINGTON METROPOLITAN AREA TRANSIT AUTHORITY: IS THERE A SECURITY GAP?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
  WASHINGTON METROPOLITAN AREA TRANSIT AUTHORITY: IS THERE A SECURITY 
                                  GAP?

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON HEALTH CARE, DISTRICT OF
               COLUMBIA, CENSUS AND THE NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 24, 2011

                               __________

                           Serial No. 112-72

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform


                  U.S. GOVERNMENT PRINTING OFFICE
71-298                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d7b0a7b897b4a2a4a3bfb2bba7f9b4b8baf9">[email&#160;protected]</a>  


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

   Subcommittee on Health Care, District of Columbia, Census and the 
                           National Archives

                  TREY GOWDY, South Carolina, Chairman
PAUL A. GOSAR, Arizona, Vice         DANNY K. DAVIS, Illinois, Ranking 
    Chairman                             Minority Member
DAN BURTON, Indiana                  ELEANOR HOLMES NORTON, District of 
JOHN L. MICA, Florida                    Columbia
PATRICK T. McHENRY, North Carolina   WM. LACY CLAY, Missouri
SCOTT DesJARLAIS, Tennessee          CHRISTOPHER S. MURPHY, Connecticut
JOE WALSH, Illinois


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 24, 2011....................................     1
Statement of:
    Sarles, Richard, general manager and chief executive officer, 
      Washington Metropolitan Area Transit Authority; Chief 
      Michael Taborn, Metro Transit Police Division; Chief Cathy 
      Lanier, Metropolitan Police Department; and Anthony 
      Griffin, county executive, Fairfax County Government.......     8
        Griffin, Anthony.........................................    41
        Lanier, Chief Cathy......................................    34
        Sarles, Richard..........................................     8
        Taborn, Chief Michael....................................    32
Letters, statements, etc., submitted for the record by:
    Connolly, Hon. Gerald E., a Representative in Congress from 
      the State of Virginia, prepared statement of...............    47
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     6
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................     3
    Griffin, Anthony, county executive, Fairfax County 
      Government, prepared statement of..........................    43
    Lanier, Chief Cathy, Metropolitan Police Department, prepared 
      statement of...............................................    38
    Sarles, Richard, general manager and chief executive officer, 
      Washington Metropolitan Area Transit Authority, prepared 
      statement of...............................................    11


  WASHINGTON METROPOLITAN AREA TRANSIT AUTHORITY: IS THERE A SECURITY 
                                  GAP?

                              ----------                              


                         FRIDAY, JUNE 24, 2011

                  House of Representatives,
Subcommittee on Health Care, District of Columbia, 
                  Census and the National Archives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
room 2247, Rayburn House Office Building, Hon. Trey Gowdy 
(chairman of the subcommittee) presiding.
    Present: Representatives Gowdy, Gosar, Davis, Norton, Clay, 
Murphy, and Cummings (ex-officio).
    Also present: Representative Connolly.
    Staff present: Ali Ahmad, communications advisor; Michael 
R. Bebeau, assistant clerk; Howard A. Denis, senior counsel; 
James Robertson, professional staff member; Peter Warren, 
legislative policy director; Ronald Allen, minority staff 
assistant; Jaron Bourke, minority director of administration; 
Yvette Cravins, minority counsel; Paul Kincaid, minority press 
secretary; Lucinda Lessley, minority policy director; and 
William Miles, minority professional staff member.
    Mr. Gowdy. The committee will come to order.
    This is a hearing on the Washington Metropolitan Area 
Transit Authority: Is there a security gap?
    I want to welcome our witnesses. I do not have much of an 
opening statement. I am primarily here to listen.
    I want to thank our witnesses again, especially our 
witnesses in public safety and law enforcement, because I 
realize you have competing priorities. So thank you for being 
here.
    Public safety is the preeminent responsibility of the 
Federal Government. As such, we're here today to examine the 
security of our Nation's largest transit systems--one of our 
largest Nation's transit systems--the Washington Area 
Metropolitan Transit Authority. Whether you're a Washington 
resident or a visitor from the Fourth Congressional District in 
South Carolina, it's important that you not only feel safe but 
that you actually are safe.
    So I thank our distinguished panel of witnesses and, just a 
point of personal privilege, whenever I see uniforms I want to 
thank both the chiefs for your public service. I have a special 
place in my heart for law enforcement and public safety 
officers. So thank you.
    With that, I would recognize the gentleman from Illinois, 
the ranking member, Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman. Thank you 
very much for holding this hearing.
    I, too, would like to welcome the witnesses and thank them 
for coming.
    The events of September 11, 2001, brought the attention of 
transportation security and terrorism to prominence. Subsequent 
attacks in Moscow, London, and Madrid have further highlighted 
terrorism as a global threat to public transit.
    Transit security is especially challenging due primarily to 
the very nature of the business. It's open, accessible to the 
public, with predictable routes and fixed access points; and, 
more importantly, it's the transportation of choice for the 
masses in urban and metropolitan areas.
    Further, transit officials cannot employ many of the 
strategies used in aviation. Transit does not allow the 
conventional security methods of X-ray machines, metal 
detectors, and pre-screening of passengers.
    I do not envy the balancing act that must take place 
ensuring the safety, accessibility, and convenience of the 
transit system, while also maintaining the attractiveness and 
reliability of the system. But it must be done and done well. 
So when people choose public transit they should receive both a 
high degree of safety and security, as well as convenience, all 
at an affordable cost.
    Today's hearing will look at all of these issues but none 
more than security. The operation of a secure transit 
environment that spans multiple jurisdictions geographically 
and that must integrate the specialties of multiple law 
enforcement agency depends upon interagency and jurisdictional 
coordination and cooperation. That can be hard to do without 
practice, superior communication, and rigorous oversight. I am 
interested today in learning from these witnesses just how they 
have accomplished and improved these tasks.
    WMATA, similar to transit systems across the country, are 
constantly evaluating and evolving with new procedures, 
techniques, and systems to increase security. Even in my home 
city of Chicago, the Chicago Transit Authority recently 
announced this week new security initiatives, a doubling of the 
amount of all-angle security cameras across the rail system. 
Hopefully, this type of initiative deters crime as well as 
decreases opportunities for domestic or international 
terrorists to attack our country.
    WMATA, I am certain, has similar sources. So I am very 
interested in today's topic and greatly anticipate the 
testimony we will hear.
    Transit security is a timely and necessary topic. So I 
thank you, Mr. Chairman, and again I thank the witnesses for 
coming and for their participation.
    I yield back.
    [The prepared statement of Hon. Danny K. Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T1298.001
    
    [GRAPHIC] [TIFF OMITTED] T1298.002
    
    Mr. Gowdy. The chair would now recognize the ranking member 
of the full committee, the gentleman from Maryland, Mr. 
Cummings.
    Mr. Cummings. I want to thank you very much, Mr. Chairman, 
for calling this hearing.
    As a member of both the Committee on Oversight and 
Government Reform and the Committee on Transportation and 
Infrastructure, I know how critical the Metro system is to the 
Federal Government and to the entire metropolitan Washington 
region. As a youngster who depended on the bus to take me to a 
better school on the other side of Baltimore, I also know how 
critical public transit is to, as the Metro says, opening 
doors.
    I appreciate the opportunity today's hearing provides to 
consider security on the Metro system. This system serves 86 
stations and carries more than half a million passengers every 
day. Given their openness, transit systems are inherently 
vulnerable to a variety of potential security threats. This is 
particularly true of the Washington Metro, which is such a 
visible part of our Nation's capital infrastructure. It is 
critical that we understand the full range of threats 
confronting Metro, as well as any gaps that may exist in 
metro's defenses.
    Effective security on the Metro requires a system to 
counter a threat to terrorism. But it also requires a system to 
protect the passengers and system operators from other possible 
threats. I'm deeply troubled by reports of violence against 
Metro bus drivers, and I want to understand what can be done to 
ensure driver safety.
    Given the threats that Metro and all transit systems in our 
Nation face, it is inexplicable to me that the House 
appropriation for the Department of Homeland Security for 
fiscal year 2012, which provided funding for transit security 
programs, was less than half of the administration's request.
    The Republican leadership in the House has also proposed 
deep cuts across the board to other transportation programs.
    According to the Congressional Budget Office, maintaining 
the current funding baseline over the next 6 years for highway 
and transit programs will require $331 billion. The Republican 
budget would provide only $219 billion, cutting the investments 
in highway and transit programs by more than $100 billion.
    We simply cannot maintain our competitiveness as a Nation 
by failing to make investments that enable us to build, 
maintain, and protect our essential transportation 
infrastructure.
    And so, Mr. Chairman, I look forward to the testimony of 
our witnesses. I join you, Mr. Chairman, as you salute our 
public employees and those in uniform; and that's very 
refreshing, because I know you mean it. I've said it many 
times. So many times we've heard our public employees are not 
treated very fairly, and I was very glad to hear you say what 
you said. Because they do so much. They are the glue that keeps 
our Nation together, keeps our cities and our States together.
    So, again, I thank you; and, with that, I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T1298.003

[GRAPHIC] [TIFF OMITTED] T1298.004

    Mr. Gowdy. I thank the gentleman from Maryland.
    Members may have 7 days to submit opening statements and 
extraneous material for the record.
    We will now welcome our first panel of witnesses.
    I will introduce you from my left to right, your right to 
left. I'll introduce you at the same time, and then we'll 
recognize you in that order for your 5-minute opening 
statement.
    Mr. Richard Sarles is the general manager and chief 
executive officer of the WMATA. Chief Michael Taborn is the 
Chief of the Metro Transit Police Department. Cathy Lanier is 
the Chief of the Metropolitan Police Department. Mr. Anthony 
Griffin is the county executive for the Fairfax County 
Government.
    Pursuant to committee rules, all witnesses must be sworn in 
before they testify. So I would respectfully ask you to please 
rise, and I will administer an oath.
    [Witnesses sworn.]
    Mr. Gowdy. Let the record reflect all the witnesses 
answered in the affirmative.
    You may be seated.
    Many of you are more familiar with this process than I am, 
so you should see a panel of lights. I am always reluctant to 
tell anyone who has a weapon or access to a weapon that they 
have to stop talking, but you will notice the green, yellow, 
and red, and you may do with that what you would traditionally 
do if you were driving with those.
    Mr. Sarles.

    STATEMENTS OF RICHARD SARLES, GENERAL MANAGER AND CHIEF 
    EXECUTIVE OFFICER, WASHINGTON METROPOLITAN AREA TRANSIT 
AUTHORITY; CHIEF MICHAEL TABORN, METRO TRANSIT POLICE DIVISION; 
CHIEF CATHY LANIER, METROPOLITAN POLICE DEPARTMENT; AND ANTHONY 
      GRIFFIN, COUNTY EXECUTIVE, FAIRFAX COUNTY GOVERNMENT

                  STATEMENT OF RICHARD SARLES

    Mr. Sarles. Good morning, Mr. Chairman, Ranking Member 
Davis, and members of the subcommittee. Thank you for the 
opportunity to testify today.
    I am Richard Sarles, general manager and CEO of the 
Washington Metropolitan Area Transit Authority [WMATA or 
Metro]. Accompanying me today is Metropolitan Transit Police 
Department Chief Michael Taborn.
    I am pleased to be here today to provide you with an update 
on the progress we are making at Metro in a number of critical 
areas, including safety, security, and returning our system to 
a state of good repair. I will begin by providing a short 
overview of Metro for those Members who are not familiar with 
the system or new to the committee.
    WMATA was created in 1967 through an interstate compact 
between the Commonwealth of Virginia, the State of Maryland, 
and the District of Columbia and approved by the U.S. Congress. 
Metro provides 1.2 million trips a day and is the second 
largest rail transit system and the sixth largest bus system in 
the United States.
    Americans from all over the Nation depend on the system 
when visiting the capital and attending large national events. 
This unique role is why Metro is often referred to as 
``America's subway.'' When your constituents visit Capitol 
Hill, Metro rail provides safe and affordable transportation to 
see our Nation's Capitol and visit your offices.
    Metro is also a critical Homeland Security asset and has 
demonstrated multiple times how important the system is in a 
time of crisis, such as evacuation for major weather events and 
national emergencies like 9/11. In particular, the Metro system 
is vitally important to getting Federal employees to our 
defense agencies such as the Pentagon and Department of 
Homeland Security. Approximately 40 percent of Metro's peak 
period customers are Federal employees.
    The Washington region was recently ranked the second-most 
congested in the country. Without a doubt, we would be number 
aye if not for the estimated half a million automobiles that 
Metro rail and Metro bus take off the system. Whether you ride 
Metro rail or drive your car, you benefit from system.
    Metro also serves as a key driver of the economy, 
supporting both public and private investment and has spurred 
over $37 billion in economic development at or adjacent to 
Metro property. In these difficult economic times, that 
development serves as a valuable source of revenue for our 
State and local partners.
    Now let me turn to Metro security preparedness.
    Metro rail is by design an open system, as was mentioned 
earlier, which provides unique challenges when it comes to 
securing against potential threats. By design, it does not lend 
itself to an airport-style security system. Securing our system 
starts with an up-to-date threat assessment, helping us 
determine how to most effectively use our personnel and 
resources and to prioritize our actions to best combat 
terrorism.
    Another important component of our security program is 
working each day in collaboration with the three jurisdictions 
and more than 40 law enforcement agencies in the National 
Capital Region, which enables us to share vital information 
and, when needed, added support for our security efforts.
    I want to thank both the Federal Bureau of Investigation 
and the Transportation Security Administration and our local 
partner, Chief Lanier, for their support of Metro's homeland 
security program.
    In addition to working to prevent acts of terrorism, we 
also have to have in place plans to help us quickly respond in 
the event of incidents like September 11th or an attack on our 
system. In his testimony, Chief Taborn will provide you with 
even more detail on how Metro police works to keep Metro 
secure. But I'd like to briefly touch on the topic of safety.
    Safety is our top priority at Metro. While serving as 
interim general manager and as now as the permanent CEO for the 
past 5 months, my personal goal has been to make sure that 
every employee at Metro puts safety first.
    Over the past 12 months, we have made great strides in 
addressing the recommendations of the NTSB and other agencies 
following the 2009 Fort Totten incident. The first billion 
dollars of our 6-year, $5 billion capital rebuilding program is 
dedicated to addressing those NTSB recommendations.
    I want to especially recognize this committee for playing a 
key role in helping to rebuild Metro. Under the leadership of 
then-committee-chair Tom Davis in 2008, Congress passed a 10-
year, $1.5 billion authorization, the Passenger Rail Investment 
and Improvement Act [PRIIA], to address the capital needs of 
the WMATA system. The annual $150 million appropriations is the 
funding commitment Congress made in PRIIA as the Federal 
partner, matched by WMATA's jurisdictional partners--
Washington, DC, Maryland, and Virginia--for a total of $300 
million a year. The $300 million represents almost 40 percent 
of our capital budget.
    Last year, in large measure due to the efforts of the Metro 
congressional delegation, we received $150 million in PRIIA 
funding. Without PRIIA, the progress we have made will be at 
grave risk. In fact, we would slide backward.
    What will happen if we do not receive our Federal funding 
in fiscal year 2012? Let me be clear on this point. Safety will 
come first. We will use whatever funds we have available to 
assure that the system is safe. Everything else will be on the 
table.
    Unfortunately, our customers, your constituents, will bear 
the burden of cuts through more frequent train delays, less 
reliable trains and buses, deteriorated station conditions, 
longer lines, and delayed customer information. If our efforts 
are interrupted due to a lack of funding, it would ultimately 
affect both the safety and reliability of the system.
    Every day at Metro, we are making progress, but we have a 
long way to go. However, with the continued support of our 
customers, our jurisdictional partners, and congress, we will 
get there.
    Thank you again for the opportunity to testify, and I would 
be pleased to answer any questions.
    [The prepared statement of Mr. Sarles follows:]

    [GRAPHIC] [TIFF OMITTED] T1298.005
    
    [GRAPHIC] [TIFF OMITTED] T1298.006
    
    [GRAPHIC] [TIFF OMITTED] T1298.007
    
    [GRAPHIC] [TIFF OMITTED] T1298.008
    
    [GRAPHIC] [TIFF OMITTED] T1298.009
    
    [GRAPHIC] [TIFF OMITTED] T1298.010
    
    [GRAPHIC] [TIFF OMITTED] T1298.011
    
    [GRAPHIC] [TIFF OMITTED] T1298.012
    
    [GRAPHIC] [TIFF OMITTED] T1298.013
    
    [GRAPHIC] [TIFF OMITTED] T1298.014
    
    [GRAPHIC] [TIFF OMITTED] T1298.015
    
    [GRAPHIC] [TIFF OMITTED] T1298.016
    
    [GRAPHIC] [TIFF OMITTED] T1298.017
    
    [GRAPHIC] [TIFF OMITTED] T1298.018
    
    [GRAPHIC] [TIFF OMITTED] T1298.019
    
    [GRAPHIC] [TIFF OMITTED] T1298.020
    
    [GRAPHIC] [TIFF OMITTED] T1298.021
    
    [GRAPHIC] [TIFF OMITTED] T1298.022
    
    [GRAPHIC] [TIFF OMITTED] T1298.023
    
    [GRAPHIC] [TIFF OMITTED] T1298.024
    
    [GRAPHIC] [TIFF OMITTED] T1298.025
    
    Mr. Gowdy. Thank you, Mr. Sarles.
    Chief Taborn.

               STATEMENT OF CHIEF MICHAEL TABORN

    Chief Taborn. Good morning, Mr. Chairman, Ranking Member 
Davis, and members of the subcommittee. I, too, thank you for 
the opportunity to come here to testify today.
    I am Michael Taborn, Chief of the Metro Transit Police for 
the Washington Metropolitan Area Transit Authority [WMATA or 
Metro]. Mr. Sarles has provided an overview of Metro, and I 
would like to provide additional details of our security 
program.
    On June 4, 1976, President Gerald Ford signed into law a 
bill passed by Congress authorizing the establishment of the 
Metro Transit Police [MTPD]. The MTPD is the only tri-
jurisdictional police department in the United States, 
operating in the District of Colombia, the Commonwealth of 
Virginia, and the State of Maryland. The department has an 
authorized strength of 450 sworn officers, 153 special police 
officers, 13 emergency management personnel, and 35 civilian 
personnel.
    The department police officers have law enforcement 
jurisdictions and arrest powers throughout the 1,500 square 
miles within the transit zone and responsible for crimes that 
occur in, on, or against the Metro, Metro rail, and all transit 
facilities. The Transit Police is a full-time, 24/7 law 
enforcement agency.
    Within the last year, Metro Transit Police has received 
approximately 60,000 calls for service and approximately 339 of 
those calls we received just in the last 6 months that involve 
suspicious persons, packages, bomb threats, or similar events. 
Patrol officer are deployed throughout the system with duties 
that are most clearly associated with traditional police work. 
The department's largest contingent is comprised of foot patrol 
officers, followed by mobile patrol, Metro bus enforcement, 
criminal investigations, and special operations.
    A year ago, Metro Transit Police created the ``Metrostat'' 
to identify crime trends and hotspots which allows us to 
strategically deploy our staff and resources most effectively. 
Using the Metrostat information, patrol commanders establish 
crime reduction objectives for their districts, monitor 
statistics, and intelligence, and then apply patrol tactics 
and/or specialized equipment to address those identified needs.
    To be most effective in responding to and preventing crime, 
we enlist the help of other regional law enforcement agencies 
and our own customers. Officers attend community meetings, 
promote public awareness campaigns, and often distribute crime 
prevention literature. The MTPD works aggressively with 
regional police departments, such as Chief Lanier's, local 
schools, and youth organizations to prevent youth disorder in 
the system.
    With respect to our security mission, as Mr. Sarles 
mentioned, Metro, like the majority of mass transit systems in 
the United States, is by design an open system. Security 
strategies are complex and multi-layered. The Transit Police 
utilize many tools, supported by a variety of local, State, and 
Federal agencies to ensure our security strategies and policies 
facilitate accurate and timely operational readiness to any 
identified threat or vulnerability.
    Our overall strategy security approach combines the use of 
technology with enhanced operational awareness and puts an 
emphasis on training, public awareness outreach efforts, 
emergency preparedness, and the use of various security 
assessments that take into consideration the unique designs of 
our transit system.
    Through the Washington Metropolitan Area Council of 
Government's Police Chief Subcommittee, the MTP meets regularly 
with, again, over 40 law enforcement law enforcement agencies 
in the National Capital Region to address current and emergency 
law enforcement issues and tends to exchange information and 
ideas about the delivery of public safety.
    Further, the committee facilitates appropriate dialog to 
enhance regional security and antiterrorism efforts and plans 
for the safe and effective transportation of millions of 
passengers to the national level events such as the 
inauguration of the President of the United States, July 4th 
Fireworks, National Cherry Blossom Festivals, Marine Corps 
marathons, and sports and entertainment events.
    To help coordinate law enforcement efforts with our Federal 
partners, the Metro Transit Police has an officer assigned to 
the FBI's local Joint Terrorism Task Force, the National Joint 
Terrorism Task Force, with Chief Lanier's Washington Regional 
Threat and Analysis Center, and the Transit Police have taken 
aggressive steps to combat the threat of terrorism and partner 
with the Federal Transit Administration and the Transportation 
Security Administration.
    Officers use a variety of high visibility uniformed patrol 
techniques, technology, equipment, and national security 
initiatives to assist in preventing terrorism. WMATA's Security 
Inspection Program was launched in December 2010, which is a 
tactic also used in transportation environments to effectively 
target prevention of terrorist activity, a step which is 
modeled after successful programs currently in use by transit 
properties in the United States, including those in New Jersey, 
New York, and Boston. The purpose of the screening is to detect 
any explosive material and to prevent it from being brought 
into the Metro system.
    In 2009, WMATA's Anti-Terrorism Team, ATT, was created 
through a transit security grant. The team is comprised of 20 
sworn police officers who provide high visibility patrols, 
focus on protecting transportation patrons and employees. The 
ATT team works closely with the Federal air marshals and the 
Transportation Security Administration to develop new 
strategies and techniques for combating acts of terror. Team 
deployment objectives include identification of system 
vulnerabilities, high visibility patrol, surveillance and 
countersurveillance operations, and investigation of suspicious 
activity, persons, or packages.
    The Authority has made great strides in the utilization of 
technology to harden WMATA's infrastructure, physical security 
enhancements including lighting sensing, access control, 
intrusion detection systems--as well as bus facilities. The 
Program of Response Options and Technology Enhancements for 
Chemical/Biological Terrorism [PROTECT] system, is capable of 
detecting selected groups of chemical warfare agents within a 
predetermined threshold at Metro stations. Simply put, PROTECT 
and its command and control software offers information to 
chemical incident operations disciplines to make more informed 
response decisions.
    Currently, we have over 7,000 cameras throughout the 
system. Eighty-one percent of those cameras are operational.
    We also use customer communications in our stations, 
vehicles, and facilities to raise awareness and remind the 
public to report any suspicious behavior to the police. On any 
given day, WMATA patrons hear a variety of safety and security 
related messages, including announcements by myself and by 
Department of Homeland Security Secretary Janet Napolitano, 
whose announcement seeks the assistance of transit riders in 
identifying suspicious persons or packages in the nationally 
recognized ``If You See Something, Say Something'' campaign.
    Transit riders also witness high-visibility patrols in 
collaboration with many local, State, and Federal partners.
    Since 2006, Congress has appropriated approximately $1.6 
billion in transit security grant funds to help local transit 
authority such as Metro to get trained personnel, participate 
in exercises, and raise public awareness and protect critical 
infrastructure.
    The remaining funds are fully obligated in the sense that 
we have received, to date, $108 million in transit security 
grant funds.
    In my written testimony, we have provided detailed 
information on the challenges faced in spending those dollars 
as quickly as possible. We're working internally at Metro to 
expedite those processes.
    In addition, we have provided bipartisan leadership of the 
House and Senate Homeland Security Committee input on what 
changes need to be made in the legislation that created the 
grant program to streamline DHS grant programs.
    Thank you again for the opportunity to provide you this 
overview of our efforts to keep Metro safe and secure, and I 
will be pleased to answer your questions.
    Mr. Gowdy. Thank you, Chief Taborn.
    Chief Lanier.

                STATEMENT OF CHIEF CATHY LANIER

    Chief Lanier. Good morning, Chairman Gowdy, members of the 
committee, Congresswoman Norton, and staff.
    I appreciate the opportunity to present the statement on 
behalf of the Metropolitan Police Department on our 
collaborative efforts with our Federal, State, and local 
partners to address the security in our Metro system.
    Today, I'll provide an overview of how MPD works with Metro 
on not only homeland security issues but also highlight the 
joint efforts that we have to address crime and public safety. 
It's relevant to all of us.
    Obviously, mass transportation is one of the most 
attractive targets for anyone wanting to disrupt a major city. 
The TSA's Office of Intelligence concurs that mass transit and 
passenger rail systems are viable targets for a terrorist 
attack. An attack on a passenger rail system would garner 
attention not only because of the damage and casualties but 
also because it could disrupt daily operations of a major 
metropolitan area for an extended period of time.
    As rail systems are easily accessible to the public and 
difficult to secure, they are extremely vulnerable to attacks, 
as we have seen overseas. Since 2004, there have been four 
major attacks on mass transit, in Moscow, Mumbai, London, and 
Madrid, with almost 500 total fatalities and more than 3,000 
people injured. Given the possibility of an attack on Metro and 
the impact it would have on the District and the entire region, 
it is important to review how authorities in the National 
Capital Region work together to safeguard the transit system.
    Clearly, all of the law enforcement agencies in this region 
play a critical role in securing our transit and rail systems. 
Although we are often thought of as first responders, our most 
critical role is prevention through detection and deterrence. 
Through a robust Suspicious Activity Reporting, we are uniquely 
positioned to detect and prevent terrorist incidents right here 
at home. Information provided by local police and, very often, 
the community, if discovered early and matched with the right 
intelligence, can help detect, disrupt, and prevent a terrorist 
plot.
    Recognizing that information sharing is critical in both 
preempting and responding to an attack, MPD maintains daily 
contact with Metro Transit and Amtrak police in our fusion 
center through the intelligence analysts that are collocated to 
other partners around the region.
    In addition to tracking operational law enforcement 
activity and identifying emerging threats in the fusion center, 
MPD is also engaged in the Homeland Security's pilot project of 
the Trap Wire, a predictive software system. This system 
supports the use of our suspicious activity reporting to detect 
patterns of pre-attack surveillance and logistical planning.
    Beyond that, the flow of information among Federal, State, 
and local partners through our Joint Terrorism Task Force is 
excellent in the Nation's capital. Our agencies have worked 
together for many years sharing information and coordinating 
responses to a variety of situations and the many special 
events that take place in the Nation's capital.
    In addition to the pre-established relationships to the 
members of the task force, the areas chiefs of police meet on a 
monthly basis to address regional issues, including rail 
safety, through the council of governments.
    MPD also facilitates a weekly intelligence meeting with a 
number of our key partners that include Metro Transit, the FBI, 
the Secret Service, the U.S. Capitol Police, the U.S. Park 
Police, Amtrak police, as well as D.C. Fire and EMS. These 
meetings provide a forum for us to share critical information 
about sensitive law enforcement operations as well as 
classified intelligence.
    As real-time information is critical in the event of a 
major incident, the MPD is in the process of integrating real-
time computer aided dispatch information with not only Metro 
Transit Police but other law enforcement agencies around the 
region to enhance our situational awareness.
    From an operational perspective, the MPD actively 
participates in Metro Transit's Terrorism Identification and 
Deterrence Effort, or Blue TIDE, through coordinated patrols in 
and around Metro stations. As a part of these patrols, MPD's 
bomb units conducts regular sweeps to detect explosive 
materials, including unattended packages which have the 
potential to store IEDs.
    MPD also participates in similar programs on Operation Rail 
Safe, which provides enhanced patrols in and around our 
commuter rail posts.
    With so many police departments working in the region, 
coordinated information sharing and response planning is 
essential. Even beyond the National Capital Region, MPD has 
been participating in the Northeast Corridor Coalition since 
2005. This consortium of police and transit agencies works 
together to enhance security planning and programming along the 
Amtrak rail between Washington, DC, and Boston. This training 
includes response for active shooter scenarios as well as 
chemical, biological, radiological, nuclear, or explosive 
attacks.
    MPD and Metro Transit have a strong relationship that is 
grounded in a history of mutual support. From sharing crime 
information around Metro platforms to responding to events 
occurring in a transit system, our overlapping jurisdictions 
that require efficiency in collaborative responsibilities.
    For major events occurring in the District of Columbia, 
WMATA has been quick to offer services such as buses for 
cooling centers, blockades, and transportation. During the 
school year, Metro Transit Police participate in a daily 
conference call with MPD to ensure situational awareness 
regarding the safe transport of our students after school.
    MPD also assists--has assisted Metro in metering large 
crowds at busy stations like Gallery Place, providing traffic 
control during incidents, and coordinating criminal 
investigations.
    While all of the joint exercises and coordinated efforts 
have worked well to build relationships and enhance operational 
effectiveness, the best example of our joint efforts occurred 
on June 22, 2009, when nine people were killed as a result of a 
collision on Metro's Red Line. This tragic incident required 
the coordinated response of numerous agencies. The District's 
Fire and EMS quickly coordinated the unified command, which 
delineated the roles in response of all of the responding 
agencies. The quick response and communications between law 
enforcement and first responders led to the determination very 
quickly that the event was not related to a crime or an act of 
terrorism. MPD immediately set up our Joint Operations Command 
Center to serve as an area command for police resources, and 
practiced protocols were quickly implemented. Security 
perimeters were established on the scene to identify responders 
and restrict unauthorized personnel, and a rotation schedule 
was established to ensure relief of personnel. This was a 3-day 
operation.
    Radio communications and external communications with the 
media operated in strict accordance with the National Incident 
Management System and Incident Command System procedures. This 
incident exemplified proficient efforts of our responding 
agencies in dealing with disasters of this magnitude.
    Ultimately, while much collaboration has and continues to 
take place, it is imperative that relevant partner agencies 
continue to train, exercise, and share information on a daily 
basis in order to effectively respond to any future scenario. I 
can assure you that the MPD remains committed to this process.
    Once again, I appreciate the opportunity to participate in 
the hearing today. I'll be happy to take any questions.
    [The prepared statement of Chief Lanier follows:]

    [GRAPHIC] [TIFF OMITTED] T1298.026
    
    [GRAPHIC] [TIFF OMITTED] T1298.027
    
    [GRAPHIC] [TIFF OMITTED] T1298.028
    
    Mr. Gowdy. Thank you, Chief Lanier.
    Mr. Griffin.

                  STATEMENT OF ANTHONY GRIFFIN

    Mr. Griffin. Good morning, Mr. Chairman, ranking member, 
members of the subcommittee. I am Anthony H. Griffin, county 
executive, Fairfax County, VA, a position that I have had the 
privilege of holding since January 2000.
    I appreciate the opportunity to speak to you today on the 
security challenges facing the Washington Metropolitan Area 
Transit Authority, otherwise referred to as WMATA. My comments 
are formed from two perspectives: first, as CEO of the largest 
jurisdiction in the region by population and as Director of 
Emergency Management as set by the Code of Virginia; second, as 
co-chair of the decisionmaking process for the National Capital 
Region since the inception of the Urban Area Security 
Initiative grants until the conclusion of 2010, or seven grant 
cycles. Additionally, I served as chair of the Chief 
Administrative Officers Committee of the Metropolitan 
Washington Council of Governments, otherwise referred to as 
COG, for 10 years.
    Based on my own experience, the five existing rail stations 
in Fairfax County, a shared bus facility, and having consulted 
with my police and fire chiefs, I can say that the relationship 
between Fairfax County and WMATA from a public safety 
perspective is very strong. WMATA is an active participant with 
the Chiefs' Committee at COG and is present when security 
issues are discussed on a regional basis.
    On a police operational level, collaboration and 
coordination is good, whether with a specific District station 
or with the County's specialty units, such as SWAT, K-9, or 
EOD, when there is a need for a station sweep or for high 
visibility.
    WMATA regularly communicates fire systems status updates 
and when there are upgrades to equipment or modifications to 
stations. Fairfax County has regularly participated in large-
scale multi-jurisdictional exercises with WMATA, with a focus 
on rail security and safety.
    In summary, there is a strong professional relationship 
between WMATA and the County's public safety agencies, and I 
personally have worked well with the senior management of 
WMATA.
    As previously noted, WMATA is an active participant when 
discussing how preparedness in the National Capital Region can 
be improved, and the grant process has been a major 
facilitator. It has been accepted by the participants that 
transportation is a key issue when considering threats and 
mitigation. Rail facilities and stations are recognized as 
potential targets, and rail is integral to being able to move a 
significant percentage of the region's population during a time 
of crisis.
    WMATA has access to other Federal grant programs 
specifically oriented to transit security and safety. However, 
the CAOs--or the chief administrative officers--and the Senior 
Policy Group--representatives from the Governors--have agreed 
that WMATA should be a funding recipient because its security 
requirements exceeded its normal resources. Consequently, in 
addition to the NCR localities receiving and managing 
subgrants, WMATA was allocated funds for specific projects 
which would enhance its security and its ability to respond to 
emergencies. I have attached a list of the projects and the 
amount of money assigned.
    Is there a security gap? In my experience with public 
safety, there are never enough resources, whether it is with my 
own agencies or with WMATA. My job, and our jobs, is to 
prioritize the risk and manage the resources available to the 
greatest effect and benefit.
    In my opinion, based on my exposure to the subject and 
WMATA, I believe that WMATA has done a good job with the 
resources available but that if there were more resources 
available, it would help narrow the gap. I should note there 
will always be a gap, but I believe continued vigilance and 
effort will tilt the odds in favor of WMATA and the public 
safety agencies.
    Mr. Chairman, thank you for the privilege to speak. I will 
be pleased to respond to the committee's questions.
    [The prepared statement of Mr. Griffin follows:]

    [GRAPHIC] [TIFF OMITTED] T1298.029
    
    [GRAPHIC] [TIFF OMITTED] T1298.030
    
    Mr. Gowdy. Thank you, Mr. Griffin.
    At this point, the chair will recognize the ranking member 
of the subcommittee, the gentleman from Illinois, Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman; and, again, I 
want to thank all of the witnesses.
    Chief Taborn, WMATA's security program consistently ranks 
among the top 20 percent of transit systems nationwide as 
measured by TSA inspectors using the Baseline Assessment and 
Security Enhancement program, BASE. However, I know that items 
such as fully operational cameras at all stops are still 
lacking. So could you discuss some security needs that might 
exist on challenges that you think need some additional 
attention?
    Mr. Taborn. Well, thank you very much, sir. We are very 
grateful for the Federal Government, the Department of Homeland 
Security, TSA, the Federal Transit Administration, for all of 
the support they've provided to Metro through the course of 
many years.
    Many of those items that you talked about, cameras, we have 
a 35-year old system, and it wasn't until 10 years ago when our 
second police officer was killed in the line of duty that those 
cameras did not have the capability of recording. As we have 
gone through the years, we have sought out grants to enhance 
our camera capabilities, and those are the steps that we are 
taking now. We have cameras that recently, through the UASI 
process, have identified the 86 Metro rail stations, so we'll 
have the opportunity through sharing with jurisdictional 
partners to see those types of things. But we are in the 
process of working with the general manager and the new 
leadership to seek funds to provide more cameras in our 
systems. We know that cameras aren't always the solution, but 
they aid in investigations or telling us what's going on in any 
particular period of time.
    Mr. Davis. Thank you very much.
    I know that you were instrumental in the development of the 
transit security protection measures that has been adopted 
nationwide. Can you tell us about the anti-terrorism training 
that your office received and how often are these drills 
conducted?
    Mr. Taborn. Again, as a response to the events of 9/11, 
initially before the birth of Department of Homeland Security 
there was a $23.5 million Department of Defense grant that was 
given to the Federal Transit Administration to go out and do an 
assessment of transit properties all over the United States. 
Part of that involved three basic premises: enhance employee 
training, emergency preparedness, and public awareness; and 
part of that training was a spin-off from that terrorist 
activity recognition and reaction program that was given to 
transit agencies across the country, the BAT, Behavioral 
Assessment Training program. That was spearheaded by the 
Transportation Security Administration, and it affords not only 
police officers but front-line employees what to look for from 
a terrorist standpoint.
    And so, as typified by the events in Time Square where a 
person saw something and said something, those are the types of 
things that we encourage both our employees as well as our 
riders to report something that may not be a big deal but may 
be the key to investigate crimes. So training is something that 
continues to happen.
    TSA has a very good training program. The National Transit 
Institute, through funding from FTA, has a great training 
program. And it's getting this type of training to transit 
agencies across the country.
    Mr. Davis. And how often is that used?
    Mr. Taborn. We provide training every year. We're in the 
process now of providing training to all of our front-line 
employees, over 7,000 employees, for Metro emergency response 
training to familiarize them not only with terrorist tactics 
but what to do in the case of an emergency. So that training is 
ongoing. As new people come on in the department, come on to 
the agency, we do a repetitive requirement to provide their 
training.
    Mr. Connolly. Would the chairman yield for a unanimous 
consent request?
    Mr. Gowdy. Yes.
    Mr. Connolly. Thank you, Mr. Chairman.
    I am not a member of the subcommittee, but I am a member of 
the full committee. I have a statement I would like to enter 
into the record as a long-time supporter of Metro expressing my 
support for management endeavors to enhance public safety and 
to encourage the Federal Government to do its fair share in 
support of the same.
    Mr. Gowdy. Without objection, and thank you for being here. 
We are delighted to have you with the subcommittee.
    Mr. Connolly. I thank the chair.
    [The prepared statement of Hon. Gerald E. Connolly 
follows:]

[GRAPHIC] [TIFF OMITTED] T1298.031

[GRAPHIC] [TIFF OMITTED] T1298.032

    Mr. Gowdy. To our witnesses, our guests, and my colleagues, 
who are probably aware, if not more aware than I am, votes have 
been called. I think it is a very short series.
    Here's the pledge I will make to you. We will sprint to the 
Capitol to vote. We may walk briskly. We will go as quickly as 
we can to the Capitol and vote, because we want to be good 
stewards of your time. I am coming back the second I cast my 
vote. I know that other colleagues will as well. This is a very 
important hearing.
    So Mr. Davis has graciously offered to buy any of you 
drinks or something to eat if you want it during the break. 
We're going to come back. If it happens again, I won't make you 
do it again. But if you would indulge us to go vote, come back, 
I would be very grateful; and if it happens again I won't ask 
you to do it again.
    So we will be in recess pending votes. Thank you.
    [Recess.]
    Mr. Gowdy. Welcome back. On behalf of all of us, thank you, 
the witnesses, for your indulgence.
    I recognize the gentleman from Arizona, Dr. Gosar.
    Mr. Gosar. Thank you, Mr. Chairman.
    I have just got some background checks or questions, Mr. 
Sarles.
    When we're looking at doing background checks, do we also 
do--what kind of protocol do we have for monitoring our force 
periodically?
    I think one of the things we've learned in some of our 
Homeland Security issues is that we may have had somebody come 
by, come through and have a different background than they 
profess to be. What kind of progress do we have for monitoring 
particularly like maintenance, all of our different types of 
employees?
    Mr. Sarles. Basically, when they're hired, we have 
background checks.
    With regard to bus operators, we do checks on driver CDLs 
to make sure that they continue to maintain their license.
    Also, with regard--we have a lot of contractors working on 
the sites, so we have checks on that that we do. It's basically 
every 2 years--every year background checks on them. So that's 
the extent that we do it today.
    Mr. Gosar. Is that mandatory by compliance from the 
contractor head--or is there random review?
    Chief, you can answer as well.
    Chief Taborn. Many of the guidelines and recommended 
practices that came by way of either TSA or FTA talks about 
background checks. It's something that's not mandatory, but we 
embrace that, and we do it on a yearly basis for all 
contractors, bus operators, as indicated by Mr. Sarles, or 
train operators, their driver's license, their criminal 
records. We want to check that to make sure that they're don't 
have a criminal charge or traffic violations that prevents them 
from delivering good-quality service.
    Mr. Gosar. I know that when we reviewed TSA we had some 
concerns about some of the folks in delivery, maintenance, that 
aspect, because we've got a number of access points that don't 
really--we're more reactive than we're proactive. And I want to 
know more about where you would go with that.
    Chief Taborn. Again, probably the whole universe of 
operation, 8,000 employees, we on a--probably every 2 weeks, do 
a records check so we know if someone is wanted for a 
particular crime.
    As part of their employment--initial employment, they go 
back and they look at 10 years. But on a consistent basis we 
run the checks of our employees, both traffic and criminal, 
probably about every 2 to 3 weeks.
    Mr. Gosar. Do we review how the systems actually work 
themselves and how people can infiltrate a system? I guess just 
more review.
    As a business owner, there's always--you know, we have an 
employee, we bring them in, we always have a 6-month review. 
Sometimes we'll actually have another review from another 
employee. You know, those kind of things for monitoring. 
Because just a background check is not going to catch 
everything.
    Chief Taborn. Well, from the standpoint of our contract, we 
do it on a yearly basis for our employees. As I indicated, 
about every 3 weeks we do a check. Sometimes, depending upon 
the jurisdiction, if they left this area, we don't to do a 
nationwide check. We do the jurisdictional check in Maryland, 
and Virginia, and District of Columbia or if, in fact, they 
live in Pennsylvania, something like that.
    Mr. Gosar. And a protocol if you have suspicious activity. 
What would be your normal protocol if you had somebody with 
suspicious activity? Or a warning light?
    Chief Taborn. Again, we partner with the FBI Joint 
Terrorism Task Force. So if there is any suspicious activity 
that arises to that level that sort of borders on terrorism, we 
will immediately let them know.
    Again, we have a person, the same as Cathy Lanier, and 
track it, and that information is put in there. So if there is 
a possibility that there is a hit or somebody has additional 
information, we all in law enforcement would know about it.
    Mr. Gosar. And, last question, how do we involve the 
public? How do we go about improving that relationship? Because 
the public--I mean, we can't catch everything. We need the 
public's insight here. How do we keep them involved and 
constantly take their proactive ideas?
    Chief Taborn. Good. If you go back, the basis of the ``See 
Something, Say Something'' had its birth in Transit Watch and 
was similar to Neighborhood Watch where messages were--things 
were delivered to transit properties. New York took ``If You 
See Something, Say Something.'' Others adopted ``Is That Your 
Bag'' or ``See It, Say It.'' So those were slogans that sort of 
embraced the public into the security in protecting themselves 
while they were in public transportation.
    And there are a host of initiatives. I think I was with 
Chief Lanier when Secretary Napolitano launched the ``See 
Something, Say Something.'' Because it has application not just 
in transit but in all types of sectors. So if we say something 
suspicious, we want to notify the authorities so actions can be 
taken.
    Mr. Gosar. Thank you.
    Mr. Gowdy. The chair would recognize the gentlelady from 
the District of Columbia, Ms. Holmes-Norton.
    Ms. Norton. I thank you Mr. Chairman. I want to thank all 
of the witnesses for your very helpful testimony.
    I especially want to thank you, Chairman Gowdy, for today's 
hearing on a matter of great importance to the Federal 
Government because of the importance of WMATA to the Federal 
Government.
    I am not sure all of us were here, but in the winter of 
2009 and 2010 the Federal Government itself shut down. The 
major reason was because WMATA shut down.
    And I think it was 2008 Congress did something with respect 
to WMATA it would never do for any other regional or local 
system. It authorized $1.5 billion of capital repairs of WMATA. 
This was done when my good friends on the other side were in 
charge.
    I do want to read what this committee said at the time, at 
least in part. ``Metro bus and rail service plays an 
indispensable role in the day-to-day operations of the Federal 
Government.'' And then the committee went on to speak of 
private citizens who have business with the government who 
depended upon WMATA, about the matters of State, and concluded, 
thus, Metro is a national asset in which all Americans have an 
interest.
    Well, the Congress did come to that conclusion, and it's 
interesting that we had difficulty getting the funds out. We 
got the first $150,000 installment only after nine people were 
killed in the tragic Metro accident, as it turns out about 2 
years ago this week.
    Now, you have indicated, Mr. Sarles, that you did not 
receive the $150,000 this year--that would be the third 
installment--that you would not let safety slip and that you 
would take everything else away or as much of it as you could 
in order to keep the Metro safe. And I am sure you would. But I 
am not sure the committee understands what you are doing and 
what we mean by ``keep it safe.''
    Would you be able, for example, to keep on track for the 
repairs and rehabilitation necessary to make this a safe line? 
For example, the accident involved cars from the 1970's, which 
were obsolete but which you have no alternative but to use. So 
you are still using, are you not, the 1970's vintage cars where 
virtually all of those who died were killed? And what are you 
going to do? What would be your priorities? Would you be able 
to be on track if we pulled all the funds away? Describe to us 
what the work is all about.
    Mr. Sarles. With regard to the $150 million a year, that, 
matched with the local contribution of $150 million, is $300 
million a year, which is nearly 40 percent of our budget. If we 
lost that, we would, as I said, cause us to slide backward. We 
would still proceed with the purchase of those cars for 
replacement.
    Ms. Norton. How many of those have you purchased?
    Mr. Sarles. There's 300 cars to be replaced. Those are the 
oldest cars.
    Ms. Norton. How many have been purchased so far?
    Mr. Sarles. We placed the order for the 300 plus some other 
cars----
    Ms. Norton. So none of those cars have been replaced as of 
yet.
    Mr. Sarles. No. They are being designed right now with the 
manufacturer Kawasaki in Nebraska, and then we start taking 
delivery in of them in 2013.
    But if we lost 40 percent of our capital budget, we would 
still operate safely. That doesn't mean we would operate 
reliably. For instance, we would not be able to do the track 
reconstruction. We're dealing with tracks, rails that are 30, 
35 years old. We would not replace them. What happens when you 
don't replace them is you have to operate at slower speeds. So 
it would slow down the system.
    You would also--we would find ourselves doing a lot more 
daily inspections and finding problems, which would mean there 
would be interruptions during even the peak period if we have 
to go in and make the quick fix to keep the railroad running.
    The same thing is true with buses. We have been able to, 
over the last several years, buy enough buses to get the bus 
system in shape, at least with regard to the age of the buses. 
We would have to stop buying those.
    As a result, the buses would get older and older, and they 
would break down, and the service that we provide to our bus 
customers would deteriorate. When you don't do the 
reconstruction, it means that you have more breakdowns, you 
operate more slowly. Because, in order to keep it safe--and, 
ultimately, we've seen tragically what has happened when there 
wasn't enough funding for the system.
    Mr. Gowdy. I thank the gentlelady from the District of 
Columbia.
    The chair at the point would recognize the gentleman from 
Missouri, Mr. Clay.
    Mr. Clay. Thank you so much, Mr. Chairman; and I thank the 
witnesses for their appearance today.
    Chief Taborn, news reports have highlighted an increase in 
crime at the Prince George's County Metro stops. In fact, 6 of 
the top 10 Metro stations with the highest crime rates in the 
D.C. metropolitan area were in Prince George's County. Can you 
detail what is being done to curb this crime?
    Chief Taborn. Sure. In the 86 stations, we have many 
stations that are end-of-the-line stations; and that's where we 
have the larger parking facilities, whether it is garages or 
parking lots. Seventy-five percent of the crimes that occur on 
the Metro are crimes against property. So whether it's stealing 
the GPS, the catalytic converter, or seeing change and breaking 
the window and stealing that, those are the types of crimes 
that we see most in the outlying jurisdictions and in 
particular Prince George's County.
    What we've done is work with Interim Chief Magaw and 
reached out to his department, Prince George's County. The 
general manager met back in April with 17 of the local 
jurisdictional law enforcement leaders or their representatives 
and talked about the crimes in and around the entire 
jurisdiction and specifically those that we had seen an 
elevation in crime; and we got a commitment from those chiefs 
to do as much as they possibly could do.
    One of the solutions was to provide them with a SmarTrip 
card so their officers on patrol, as they go into the parking 
lot, they could go, wherever they are doing patrol, have access 
to that. And when you increase the visibility of law 
enforcement, there is a probability that those people who are 
committing those crimes will be reduced.
    We also have, as Chief Lanier indicated, Blue TIDE, where 
we partner on a quarterly basis with law enforcement throughout 
the National Capital Region and show a combined effort, whether 
it's in Montgomery County, Prince George's County, the District 
of Columbia, and we show that we are there to support and those 
types of efforts are those that we advocate and jointly 
participate in collaborations.
    Mr. Clay. Thank you for that response.
    Chief Lanier, I want to say it was last year at the 
L'Enfant Station, or one of the southwest stations, there was a 
group of young people that were attacking passengers, and of 
course the public saw some of the disturbing video. Has that 
been curtailed as far as these roving groups of young people 
that attack passengers indiscriminately?
    Chief Lanier. I can speak to the cases that I am aware of 
that have occurred at the entrance of the Metros and around the 
Metros; and, yes, we have been very successful.
    Gallery Place was another place where we saw large groups 
of young people who came down, particularly evenings and 
weekends, that were creating all kinds of havoc around the 
train. We worked jointly with Metro to put together kind of a 
crowd metering system, an experience we learned in some of the 
larger special events here, to kind of separate and meter those 
groups into the transit stations a little bit carefully to keep 
those groups that are looking to start trouble with other 
groups separated, and that really has made a big difference, 
and particularly around the Gallery Place Metro.
    I know we have still had some disturbing incidents, though. 
There is a lot of young people that come from all over the 
region that just are using the Metro as a way to carry out 
their bad behavior.
    Mr. Clay. And have there been arrests made from officers 
witnessing some of this activity? Are you all looking at video?
    Chief Lanier. I would have to defer to Chief Taborn.
    Chief Taborn. The case that you are making reference to 
that happened at L'Enfant Plaza, we did in fact arrest the 
young lady, a female approximately 15 years of age. She was 
found guilty, and she was sentenced.
    We have other situations where we utilize the videos or any 
type of information that is provided to us and we do a 
concerted effort to investigate all of the sources. We visited 
many schools that these young people were attending; and, based 
upon that type of collaboration with the Metropolitan Police 
Department, we were able to identify this young lady and she 
subsequently admitted her involvement in this. And, again, she 
was sentenced.
    Mr. Clay. Thank you both for your responses.
    Mr. Chairman, I yield back.
    Mr. Gowdy. One of the core functions of Federal Government, 
obviously, is national security and national defense. One of 
the core functions of State government, at least in my State, 
education is in the Constitution, and public safety is near and 
dear to my heart as well, and it is also a core function of 
government.
    I feel the pain of the budget debates. I can tell you in 
South Carolina, being married to a public schoolteacher, it was 
tough last year watching our friends be furloughed; and as a 
prosecutor having to furlough your employees in your office for 
5 to 7 days without pay and then watch your sheriff have to 
furlough deputies, it is tough. Because if you can't spend 
money on public safety and national security, it makes you 
wonder where you are spending money.
    But at some point after the debate is over about our fiscal 
straits, you all still have to do the job. So I guess what I am 
asking is, aside from the resources which my colleagues have so 
aptly and ably asked you about, aside from the resources, is 
there anything else Congress can do, is there anything else we 
can do to help you do your jobs better? I understand the budget 
part and the finance part. Is there anything else we can do?
    Chief Lanier. Well, everything kind of centers around 
finances, unfortunately.
    I will just say from my perspective, I have been here 21 
years in Washington, DC, so I have been here throughout Metro's 
development and watching the population in Washington, DC, and 
the region continue to grow and watching the shifts in economic 
development and the crime patterns that go along with that. 
Crime patterns traditionally follow transportation, whether it 
be major roadways or trains or what it is.
    We have been really successful driving crime down in the 
city. Unfortunately, our success is creating issues for Metro. 
Because when you are really successful at pushing the kind of 
hard-core, committed folks, people who are committed to crime, 
they are going to go the easiest place to carry out their 
crimes and get away. And Metro makes it difficult to police.
    I can't imagine how Chief Taborn does his job with the size 
of the force he has. I was at the Pentagon last week with a 
chief over there. The Pentagon Force Protection Uniformed 
Police Department has 850 officers. They are not subject to the 
volume of 911 calls. They are not subject to the--typically, 
the ridership on Metro is almost the population of the District 
of Columbia. I can't imagine how Chief Taborn polices that 
Metro. It is geography that moves. It is very difficult.
    So I don't know what always is the politically correct 
thing to say when we are here testifying, but I know that he 
being probably won't say it, but I will say it for him. I think 
he needs more police officers. I really, really do. We work 
together, and we try and help with that challenge, but police 
officers in those train stations and on those platforms not 
only make people feel a lot safer but they will be safer. So 
that's my two cents.
    Mr. Gowdy. Chief Taborn, Chief Lanier, this is such a 
different world that we are living in, at least those of us up 
here who grew up in different times. One of the beautiful 
things about summertime in Washington is the influx of young 
people, either working in my colleagues' offices or working for 
committees or just visiting the Nation's capital. And you stop 
and think what this current crop of young people have seen, 
from Colombine, to Timothy McVeigh, to 9-11, to shootings in 
schools. It is a world that I didn't grow up in. I grew up with 
the garden variety of stealing and shoplifting and that kind of 
crime. It is a different world.
    My colleagues have addressed the national security part. 
For the garden-variety assaults--and you mentioned property 
damage--are you getting the prosecutorial support that you 
want? Are the crimes being taken seriously? And I say that with 
some trepidation as a former prosecutor as to what the answer 
may be. Is safety that doesn't amount to something cataclysmic 
and horrible being taken seriously, in your judgment?
    Chief Taborn. I think, in response to your question, those 
crimes involving crimes against persons, we do get a lot of 
support. Other crimes that may involved fare evasion, 
disorderly conduct, spitting, drinking, eating, doing a lot of 
the smaller things, our offices make the stop, they write the 
citation, they go to court, and, more often than not, those 
cases are not prosecuted.
    So what that does in operating under constraints with the 
budget is we pay overtime when we send an officer to court. So 
when there is no follow-up--and we have not even talked about 
the juveniles. Because juveniles, you either issue them a 
warning citation or you do a custodial arrest. They now know 
that there is not going to necessarily be follow-up if you 
issue them a citation. So that is an area that we could see 
some improvement in.
    We would also like to improve the grant process to assist 
us with getting dollars back into the transit security grant 
program and to look at the flexibility of those grants. We know 
that the Department of Homeland Security focuses on terrorism, 
but many of the crimes that happen in the subway, we may not be 
able to get funding to attack that. But if we attack the 
regular day-to-day crime, the spin-off is it makes it difficult 
for a terrorist to commit any other crime.
    So the funding of an explosive K-9 is an example. That will 
be funded, but a regular patrol dog will not be funded. So we 
often ask and we will be asking TSA next week when we meet with 
the top 50 transit chiefs in Denver to see if, in fact, there 
is some flexibility in the grant so that we cover the whole 
universe of security.
    Mr. Gowdy. Thank you, Chief.
    To my colleagues, given the seriousness of the issue and 
the fact that our witnesses were gracious enough to wait on us, 
if anyone interested in I guess we'll call it a lightning round 
to ask a couple of follow-up questions, please proceed.
    The gentleman from Illinois, Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman. I thank you for your 
indulgence.
    I have just one question. I would like to do a little 
follow-up on the whole question of background checks. I would 
like to ask a hypothetical question.
    Basically, because I am concerned that we don't deny 
individuals the opportunity to reenter the work force or to 
regain acceptance back into society after they have been 
convicted of criminal violations, if a person had gotten caught 
with enough marijuana 13 years ago to be arrested and 
convicted, come back under the 10-year rule, depending on what 
the transgression may have been, would that person be eligible 
for employment with the agency?
    Mr. Sarles. I really have to get back to you on that, the 
specific answer on that. We try to balance what the crimes were 
against what the person is being asked to do. So I would have 
to get back to you with a more specific answer on that.
    [The information referred to follows:]
    [Note.--The information referred to was not provided to the 
subcommittee.]
    Mr. Davis. Thank you very much. I would appreciate that.
    Because I have run into so many instances where there was 
blanket denial. And then, when you do a little checking, you 
find out that the individual may have done something and that 
he or she would actually pose no threat at all to anything. But 
their record is there, and they are denied an opportunity. So I 
would very much appreciate an answer to that question.
    Thank you very much.
    Mr. Gowdy. Mr. Clay.
    Mr. Clay. No further questions.
    Ms. Norton. Mr. Chairman, just one question. I would be 
remiss if I didn't ask it. After all, this is a committee 
consisting of members from throughout the country.
    My question really has to do with the effect of the Red 
Line Metro crash on other parts of the country. Most of us did 
not know--I don't believe I knew until the crash--that there 
were no national rail standards. I was astonished, because I am 
accustomed to safety standards in every other mode of 
transportation. No one would think of getting on an airplane if 
they thought that every city could do its own standards. It is 
the very essence of interstate commerce. Obviously, these 
trains don't always go across State lines the way that ours do.
    But Congress, in the wake of this historic crash that so 
alarmed the country, many of us introduced a bill, and it is 
reintroduced this year, that would require the Department of 
Transportation to develop national rail standards. Now local 
jurisdictions could have their own standards if those standards 
were consistent with national standards. They wouldn't have to 
be enforced by the Department of Transportation, or they could 
ask the Department of Transportation to take on that task.
    I ask this question, Mr. Sarles, because we are fortunate 
that you have led two major transit systems. I would like to 
know whether you think national rail standards would help 
improve the safety of Metro and other rail transit agencies 
around the country; and if so, how and why?
    Mr. Sarles. In fact, in my last position we ran commuter 
rail which is governed by Federal regulation, the FRA. I 
welcome that. I think it is good to have national standards.
    Ms. Norton. So commuter rail here in the district?
    Mr. Sarles. A commuter rail here would have FRA regulation.
    Ms. Norton. So they would be governed by national 
standards?
    Mr. Sarles. Right.
    Ms. Norton. You are from New Jersey?
    Mr. Sarles. From New Jersey, right.
    Ms. Norton. So part of what you had jurisdiction over was 
governed by national standards.
    Mr. Sarles. Right.
    Ms. Norton. How did you do the rest?
    Mr. Sarles. Well, we had a State oversight commission or 
committee which oversaw the light rail lines. We worked well 
with them.
    I will say that, as an operator, the primary responsibility 
for safety rests with us. But it is excellent to have 
oversight, because you never see everything.
    Ms. Norton. Well, you have some oversight.
    Mr. Sarles. Yes.
    Ms. Norton. But you don't have the same standards, though, 
so you can have apparently a very low standard in one part of 
the country and a high standard in another.
    Mr. Sarles. And that is why I think Federal Government 
involvement in terms of making sure that, even if the State 
agencies are doing it as an oversight, that there is some 
overlaying uniform set of criteria so that everyone lives up to 
the same standards I think is a good idea.
    Ms. Norton. Could I ask--I was astonished that bus drivers, 
Chief Taborn, were being attacked apparently often enough so 
that a job action was threatened and that the attacks may be 
over fares. Could you explain what prompts these attacks and 
what you are doing to protect our bus drivers?
    Chief Taborn. Sure. So far this year there have been 
approximately 22 to 25 assaults on bus operators. They span 
from either spitting upon a bus operator, throwing a cup of 
water upon a bus driver, assaults with a weapon.
    The case that we had last week out at Capitol Heights was a 
mother who had a stroller and wanted to bring the stroller on. 
It is the policy of WMATA that you fold your stroller up for 
safety reasons. She didn't want to do that. She decided to spit 
in the face of the bus operator and subsequently punched her. 
So that was a situation that happened.
    Most of the assaults stem from fare cases, people who don't 
want to pay the fare. And one would conclude that the bus 
operator probably has the most difficult job in transportation. 
They have to ask for a fare, deal with people who may not care 
for them, and then drive the bus while they are sitting behind 
them. So, oftentimes, they may be the subject of assaults.
    So we have been working with the various unions to come up 
with a way that we can----
    Ms. Norton. Are there more officers on the buses? Our chief 
spoke about how you need more officers. But when you see 
something like that happen, how does a bus driver know that he 
is going to go out and he is going to get home in the evening?
    Mr. Sarles. One of the other things that we are looking at 
is how to protect the bus drivers. You can't have a police 
officer on every bus.
    Ms. Norton. No, you can't.
    Mr. Sarles. So we have been working with the union to come 
up with a shield that would separate the bus driver from the 
passengers. It is one way to provide protection to them.
    Ms. Norton. I regret that that has to be done, but you 
can't ask somebody to drive a bus if you are going to be 
assaulted, and you don't know who is going to get on your bus 
and do so.
    Thank you.
    Mr. Gowdy. The gentleman from Missouri.
    Mr. Clay. Just real quickly, I won't take the entire 5 
minutes.
    Chief Taborn or Mr. Griffin, in fiscal year 2011, Congress 
appropriated $2.2 billion for a FEMA State and local program 
which include the Transit Security Grant Program and the Urban 
Area Security Initiative. For fiscal year 2012, President Obama 
requested $3.8 billion for the State and local programs. 
Earlier this month, the House passed the fiscal year 2012 
Department of Homeland Security appropriations bill which 
provides $1 billion for State and local programs, or $2.8 
billion below the President's request and $1.2 billion below 
fiscal year 2011.
    Chief Taborn, how would substantial cuts to the Transit 
Security Grant Program affect Metro's ability to prevent a 
terrorist attack?
    Chief Taborn. Well, any cuts in grants would have an 
impact, but we cannot just think about this transit agency. 
There are about 6,000 transit agencies across the country, many 
who are larger and who are in metropolitan areas, and we can't 
selfishly want to make sure that we get all of the funds. So 
the decision as to how they go about assigning the grants based 
upon the risks and the assessments is a difficult one. But many 
of the programs that we want to move forward that are based 
upon assessments that have been conducted on our system would 
sort of fall by the wayside. So, you know, we would encourage 
the funding of those programs to the highest level.
    Mr. Clay. Thank you.
    Mr. Griffin, how would substantial cuts to the Urban Area 
Security Initiative affect the National Capital Region's 
ability to prevent a terrorist attack, including against Metro?
    Mr. Griffin. It certainly would make it a greater 
challenge.
    Given my experience over the years, I have cautioned the 
decisionmakers on two issues. One, I think it is advisable to 
use the grants to the extent possible on one-time acquisition, 
more capital oriented, so that if the grant goes away you still 
have the capital and you are not building in operational 
requirements.
    The second guideline that I have advocated is that we 
should not initiate any program with the UASI funding that we 
are not willing as local governments to sustain, and that has 
been a tough message and not one that has always been adhered 
to. But the reality of it is, for the process that we have just 
completed, there was an 18 percent reduction in UASI funding, 
and that was handled primarily by Homeland Security by 
eliminating funding for the second-tier UASI-eligible 
communities so that the first-tier communities could continue 
to receive the funding they had received the previous year.
    I would forecast that funding is going to continue to 
decline, and we have to embrace our decisionmaking that leads 
to continuing programs that we can sustain at the local level 
once the funding disappears.
    Mr. Clay. And the Washington Metro area is second tier or 
first?
    Mr. Griffin. We are first tier. We rank fourth in terms of 
the amount of funds received behind New York City first, Los 
Angeles second, Chicago third, D.C. fourth.
    Mr. Clay. Thank you.
    Mr. Chairman, I yield back.
    Mr. Gowdy. The gentleman from Illinois.
    Mr. Davis. Thank you very much, Mr. Chairman, and this is 
certainly my last question.
    Mr. Griffin, the Transit First Coalition has called on 
WMATA's board of directors and member jurisdictions to look at 
alternatives to cutting services, knowing that something has to 
occur. Are there any other options that you might be thinking 
of that would provide the opportunity to not cut services but 
continue to provide those that are obviously greatly needed?
    Mr. Griffin. I can only speak from the perspective of 
Fairfax County. In Virginia, a substantial amount of the 
operational funding, the operational subsidy that is provided 
to WMATA, is actually provided by the local jurisdictions; and 
so it is a significant consideration.
    When I prepare a budget for my board of supervisors, we 
have over the years continued to support WMATA and have paid 
the county's share for both operational and for capital. We see 
that as a very valuable investment. We do have to balance that 
against all of the other activities that we have within the 
county.
    I am not advocating that we give more, necessarily. What we 
do is we take a balanced look at what our requirements are and 
what is desirable in the way of service provided by WMATA. That 
is not just the rail. It is also the bus service. We look at 
doing things collaboratively.
    Fairfax County recently built a new bus maintenance 
facility in the western part of the county. We collaborated 
with WMATA. It is actually a shared facility. It meets WMATA's 
requirements, and it clearly meets our own requirements. We run 
a very large bus system as well. So we look for collaborative 
ways to do business together to enhance the service but 
minimize the cost.
    Mr. Davis. Thank you very much.
    Mr. Chairman, I thank you, and I yield back.
    Mr. Gowdy. I thank the gentleman from Illinois.
    The gentleman from Arizona, Dr. Gosar.
    Mr. Gosar. My colleagues bring up a good point. As a 
business owner, there is only a limited amount of money here. 
So I want to ask the question, I think one of the major 
concerns from the GAO and the congressional fellows in regards 
to budget is we have a problem and we want to know why we have 
a problem where we have 80 percent of the funding not being 
used. Tell me, can you provide us why we have funding with 
estimates of almost 80 percent of the Federal grant dollars 
that you have received have not been used? Can we get a detail 
on that?
    Mr. Sarles. Which grant program are you referring to?
    Mr. Gosar. Unused security grants.
    Mr. Sarles. Unused security grants. I think there--and I 
will let the Chief go into the details. But one of the issues 
in that particular case, I think we have obligated almost 100 
percent of the grants. But when you look at the process--unlike 
the FTA, when you look at the process that is used by the 
agencies that provide that funding, it is a different process. 
It is a very lengthy process to get to the money. I will let 
the Chief go through the details on it.
    Chief Taborn. I think, as Mr. Sarles indicated, many of the 
grants that we have received through the transit security grant 
programs came to us oftentimes 16\1/2\ months into a 30-month 
program. They also come with requirements that we have to do 
environmental, historic preservation. So there are a lot of 
different requirements.
    And oftentimes when we make applications for those grants 
using the design and technology that we applied for, that 
technology may have changed. So anytime there is a change, we 
have to go back through the cycle, reach back out to FEMA, and 
submit again.
    It is not something that is unique to this transit agency. 
I think you find the same thing with transit agencies across 
the country.
    Internally, we are working to do everything that we can in 
the most expedient manner to comply with FEMA, to comply with 
the Department of Homeland Security, but there, too, there is a 
discussion of policy, which policies to use and which 
guidelines to go through. And oftentimes transit agencies are 
waiting to find out what it is that they need to do. Because we 
definitely would like to expend that money. We have identified 
those projects, and all of that money, as indicated by Mr. 
Sarles, has been obligated. But we have to adhere to the 
requirements of FEMA or, in some of the grants, the State 
administrative office.
    Mr. Gosar. So, in context, a lot of the problems have to do 
with who has the jurisdictional aspects and the lack of a 
nimble Federal Government and agency review; am I speaking 
clearly?
    Chief Taborn. You're absolutely correct.
    Mr. Gosar. Because I know I am one of those people that 
actually had to sponsor a jurisdictional problem over two 
agencies over who had jurisdiction over a pipeline and who had 
the ground. It has become obscene as a taxpayer, as a 
businessman, and as a citizen.
    Mr. Sarles, my point comes back to you again. One size 
doesn't fit all. I heard a comment about having one set of 
standards. One size does not fit all at all; does it?
    Mr. Sarles. I'm not exactly sure what you mean by that, but 
I want you to contrast in terms of Federal rules and grant 
making.
    On the ARRA grants, I think we got $100 million. Maybe it 
was $200 million. We have expended two-thirds of that. Because 
the rules were different, the process for getting the money was 
different, and we were able to put it to work faster. And we 
see the same thing when you look at formula funding grants from 
the FTA, the rules are different. We are able to get through 
the process faster and be able to expend and get improvements 
from it.
    Mr. Gosar. So, to me, it seems like we should be evaluating 
agencies based upon like a nonprofit; should we not? For 
example, an agency like the Army Corps of Engineers, where you 
have a $3 million grant and only $1 million of it actually goes 
to the services, the administrative costs within that of two-
thirds is ridiculous.
    So what we have to have is an agency that is much more 
nimble and working with local and State facilities to make sure 
that more of that dollar is actually spent and allow you the 
nimbleness to utilize it the way you see fit based upon the 
conditions here. Because the conditions here are going to be a 
lot different than they are for me in Arizona; are they not?
    Mr. Sarles. I don't know about Arizona, but I know here 
that when we get the money we expend as fast as possible to get 
the improvements to our customers.
    Mr. Gosar. Thank you.
    Mr. Gowdy. I want to thank our panel.
    Ms. Holmes Norton was gracious enough to take me to meet 
Chief Lanier, and then Chief Lanier was gracious enough to 
introduce me to her department, and that visit remains one of 
the highlights of my first 5 months. So, Chief Taborn, I would 
love--and I don't know whether Ms. Holmes Norton would be 
willing to take me anywhere else or not. I think she probably 
will. She is very gracious.
    Ms. Norton. Anytime, Mr. Chairman.
    Mr. Gowdy. I would love if she would allow me to join her 
to visit you so I can know more about it and be a better 
advocate for you and your officers.
    Chief Taborn. Absolutely. We would be honored.
    Mr. Gowdy. Thank you, and again I thank the guests for 
indulging us while we voted.
    We will be adjourned.
    [Whereupon, at 11:10 a.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T1298.033

[GRAPHIC] [TIFF OMITTED] T1298.034

[GRAPHIC] [TIFF OMITTED] T1298.035

[GRAPHIC] [TIFF OMITTED] T1298.036

[GRAPHIC] [TIFF OMITTED] T1298.037

[GRAPHIC] [TIFF OMITTED] T1298.038

[GRAPHIC] [TIFF OMITTED] T1298.039

[GRAPHIC] [TIFF OMITTED] T1298.040

[GRAPHIC] [TIFF OMITTED] T1298.041

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
